\j

/V Q

UNITED STATES SUPREME COURT
SCOTT MYERS,

Plaintiff-Appellant,
-against CHARLES
ROWELL,
MICHAEL
HAINES,

BUCCA, GREG SEELEY, PATROLMAN
ALAN FRISBEE, DONNA BAECKMAN,
SPITZ, TERRY WILHELM, BOBBY
MUNICIPALITY OF GREENE COUNTY.
Defendant-Appellees.

ON PETITION FOR WRIT OF CERTIORARI

Scott Myers, prose
Scott Myers
39 West Bridge Street
Catskill, NY 12414
(518) 291-8169
scottmyers@mac.com

RECEIVED
NOV 2 4 2020
SUPlREMEFCO&Tt'nTK
P1

QUESTIONS PRESENTED

1. Don't the complete reversals affirm that malicious
prosecution, inter alia, occurred and therefore requires,
on the law, that the case be remanded for a jury trial for
compensation? This 42 USC § 1983 complaint was timely and
competently litigated. No right was given up in any pre or
post-trial processes.
2. Doesn't the overall pattern of institutionalized abuse by
the defendants5 — against victims of 9/11 terrorism — easily
surpass federal thresholds of "habit and custom" sufficient
to name the Municipality of Greene County as a defendant?
3. Trial records show that Greene County Deputy Rowell
knowingly created a false and malicious arrest on February
14, 2010, which ADA Charles Bucca prosecuted,

The

conviction, and all other convictions, are reversed on
appeal. Doesn't this alone allow the claim to move to a
jury for award determination?

5 TOTALS OF JAIL AND PRISON: I was arrested on Greene County Ind. 13-163 on
August 8, 2013, incarcerated and held through trial without bail for 221
days. I was convicted on March 17, 2014, and sent to prison and released
after 652 days. On April 5, 2018, the appellate court reversed, and on
September 20, 2018, the case was dismissed. Total days from GC Ind. 11163 are 1,714 days. Previously, Greene County caused GC Ind. 11-100, which
was also reversed and dismissed on appeal. Total jail for 11-100 and 11100/C#080-11 is 390 days. Greene County caused 2,102 days of
incarceration since 9/11 2,282 days.
- 6 H years - all convictions are reversed and dismissed on appeal

P3

LIST OF PARTIES AND RELATED CASES

1. CHARLES BUCCA, former Assistant District Attorney
2. TERRY WILHELM, former Greene County District Attorney
3. DEPUTY ROWELL, Greene County Sheriff's Deputy
4. GREG SEELEY, former Sheriff of Greene County
5. MICHAEL SPITZ, former Greene County Jail Supervisor
6. ALAN FRISBEE, Director of Greene County Probation
7. DONNA BAECKMAN, Greene County PreSentence Report author
8. BOBBY HAINES, Sergeant in Charge Town of Hunter Police
9. THE MUNICIPALITY OF GREENE COUNTY

RELATED CASES
Case #Name of Case

Judge

1.

Ind. 11-100
County Ct.
dismissed

People v. Myers
George Pulver, J.
Contempt Convicted, reversed and

2.

Ind. 11-100/C#080-11
People v. Myers
Richard M.
Koweek, J.
CG County Ct. Criminal Contempt
Convicted, reversed and dismissed

3.

Ind. 13-163

Court

People v. Myers

P4

Type of case

Demise

Richard M. Koweek

GC

CG

County Ct.
Criminal Contempt
Convicted, reversed
and dismissed by 3rd Dept. Appellate Department's #105650
4.

15CV553 Myers v. Bucca, et. al.
(DNH/ATB) FDNY 42 USC
§ 1983 Malicious Prosecution Foundation of this civil
case

5.

16-277 16-471 Myers v. Bucca, et. al. USDC FDNY
Appeal
of 15cv553 to 2nd Circuit CofA Failed to advance, renewed
herein

6.

19020071 People v. Myers, GC Durham Town Court, Kennedy,
J.
Arrest for attending County Legislator's Public
Meeting
Case pending Parallel federal civil rights
case below.

7.

20-2206 Myers v. Greene County, et. al., 2nd Circuit
Federal COA from FDNY 19-cv-325 (LEK/CFH), Kahn, J.
1st Amendment access to government 42 USC § 1983 and
false criminal complaint in 19020071
Pending in the 2nd
Circuit COA

8.

902208-19 Myers v. County of Greene, Albany Co. SC,
Walsh, J. Article 78 Injunctive Relief to prevent a new
Greene County Jail Case failed, appeal to 3rd Dept,
failed, NYS COA declined to hear appeal application by
permission

9.

2018-0868 Scott Myers v. Ed Kaplan, GC SC, Fisher, J., a
libel suit against Greene County Attorney
Failed
to advance

10.

2018—0789 Scott Myers v. Ed Kaplan, Shaun Groden, and
Municipality of Greene County, GC SC, Fisher, J. A civil
case to force compliance with FOIL demands
Failed to
advance

11.

2017-977 Scott Myers v. State Farm Insurance, GC SC,
Fisher/Elliott III, J.
Civil case to reimburse chattel

P5

Denied by County S.C., denied by 3rd Appellate Div.
12.

2020-1014 Scott Myers v. Groden, et. al.
Ulster S.C • /
Schreibman, J. Article 78 Prevent Demolition of 80 Bridge
Street
Failed to advance

13.

2020-495 Scott Myers v. Groden, et. al
Ulster S.C.,
Schreibman, J., Article 78 Restore Daily Mail as Paper of
Record
Failed to advance

14.

905464-19 Scott Myers v. Groden, et. al., Ulster S.C.,
Schreibman, J., Article 78 to prevent nepotism and follow
rules

15.

Committee on Professional Standards ("COPs") complaint
against Greene County Attorney Ed Kaplan
Filed June
2020 Suspended/superseded by this federal civil case

Matrimonial related
16.

41439-04 Bassile v. Myers, Kings Co. Matrimonial/S.Ct.,
Prus, J. Matrimonial Action for Divorce
Divorce
granted Myers jailed civilly for 6 months (without
assignment of counsel)

17.

15-2482
Myers v. Fiala (DMV)
McDonough Albany S.Ct.
Article 78
Failed to restore Driver's License

18.

52221/F20983-04
Co. Family Court

19.

15cvl07
Myers v. Cavallo (BKS/ATB)
FDNY, then 2nd
Cir. CofA 42 USC § 1983 The suit failed against the
divorce attorney Cavallo, without any reason or law
cited.

Myers v. Bassile
Fasone
Kings
failed to modify child support

P6

20.

28 U.S.C. § 351(a) Myers v. Kimba Wood
Complaint
Against Judicial Officer filed August 13, 2009, in the 2nd
Circuit COA against then Chief Judge of the Southern
District Federal District Court Kimba Wood
Demise: Hon.
Sondra Sotomayor demoted Wood on showing that Wood was
personally advantage by Chief Matrimonial Judge
Jacqueline Silbermann and yet didn't recuse from Myers v.
Silbermann, et. al, 08cv4592 (KMW) SDNY.

P7

TABLE OF CONTENTS

I.

Cover Page, Petition for writ, Order appealing from ...1

II.

Questions Presented

3

III. List of Parties and Related Cases

4

IV.

Table of Contents

8

V.

Motion for Leave to Proceed In forma Pauperis

9

VI.

Affidavit in Support of Motion for In Forma Pauperis .10

VII. Index of Appendices

16

VIII. Table of Authorities

17

IX.

Opinions Below

20

X.

Jurisdiction

37

XI.

Constitutional and Statutory Provisions Involved ....37

XII.

Statement of the Case

44

XIII. Reasons for Granting the Petition

48

XIV.

Conclusion

49

XV.

Proof of Service

50

P8

JURISDICTION

Jurisdiction to this court occurred with the final en
banc denial in the 2nd Circuit Court of Appeals.

The 2nd

Circuit denial was preceded by renewal motions.
No opposition ever argued that the case lacks federal
questions, nor that thresholds aren't surpassed.
Subject Matter Jurisdiction for this federal 42 USC §
1983 civil rights matter is secured by the complete reversals
on appeal and then the dismissals on consent in the county
courts.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

All of the arrests and prosecutions are proven to be
false arrests and malicious prosecutions by the reversals and
dismissals of the lower court convictions.
These bad acts are encompassed in the 42 U.S.C. § 1983
statutory and case laws.
They certainly show a pattern of "habit and custom."
The brief incorporates the memorandum of law citing
specific applicable law.

P 37

MEMORANDUM OF LAW

1)

The case Boumediene v. Bush

553 U.S. 723, 128 S. Ct.

2229 (2008) cleared normal immunities by suing the U.S.
President Bush.

The case decided against the government,

which brought the same rights to people in our custody
(citizen, non-citizen, in the U.S. or abroad) as our citizens
here.

I did not receive even those rights.

2)

A most relevant and useful case is Cordova v. City of

Albuquerque, 14-2083, USDC New Mexico.

Hon. Neil Gorsuch, now

a US Supreme Court judge, argues circuitously why Cordova
should not receive benefits from 42 U.S.C. § 1983.

3)

My case fits within Gorsuch's cut-outs.

There was no

legitimate probable cause, my cases are dismissed entirely and
on the merits.

4)

Unlike Gorsuch's comments in Cordova v. City of

Albuquerque, No. 14-2083, 10th Circuit COA (also a 42 U.S.C. §
1983 civil rights case), my underlying causes were not
dismissed for technical reasons.

They are dismissed because

it's not a crime to protect your family after terrorism, sic.
the reversals were decided on the merits.
convictions.

P 38

I have no

5)

In a related federal civil rights case, 19cv325 FDNY,

Senior Federal District Court Hon. Lawrence Kahn concluded
that Greene County, et. al. actively suppresses and exceeds
thresholds of the U.S.C. Article 1, Access To Government.6

6)

The acts satisfy legal threshold definitions of false

arrest, malicious prosecution, inter alia, because each claim
is completely reversed and dismissed.7

7)

The abuse by the defendants likely vastly supersedes

the various immunities since they occur outside the authority
of their positions, and repeatedly.

8)

The otherwise qualified and "absolute" immunities of

these public officials are likely surpassed,
actors acting under the color of law.

They are state

"The "sufficiently

close nexus" of the state actor and the "private conduct," is

6 Myers v. Greene County, et. al. 19cv0325, (LEK/CFH), FDNY Doc 17 The
defendants arrested me on January 17, 2019 simply for attending the
monthly public legislators meeting. Senior Judge Hon. Kahn agreed that I
am denied access to government, a U.S.C. 1st Amendment right.
7 TOTALS OF JAIL AND PRISON: I was arrested on Greene County Ind. 13-163 on
August 8, 2013, incarcerated and held through trial without bail for 221
days. I was convicted on March 17, 2014, and sent to prison and released
after 652 days. On April 5, 2018, the appellate court reversed, and on
September 20, 2018, the case was dismissed. Total days from GC Ind. 11-163
are 1,714 days. Previously, Greene County caused GC Ind. 11-100, which was
also reversed and dismissed on appeal. Total jail for 11-100 and 11100/C#080—11 is 390 days. Greene County caused 2,102 days of incarceration
since 9/11 2,282 days.
- 6 H years - all matters are reversed and dismissed on appeal

P 39

self-referential and does not need to be conclusive.

That is

to say, the actions of the defendants are "under the color of
law."

These are government officials — the state actor and

the private actor diminish any otherwise liability
protections. 8

9)

Any reading of this record must conclude that the

defendants knew they were harming my family, causing repeated
force against us, and maliciously prosecuting victims of 9/11.

10)

Over 20 arrests, jail, prison, repeated solitary

confinement (by Seeley and Michael Spitz), handcuffs, Haines
pointing his gun at me, inter alia, are acts a reasonable
officer knows are harmful, which is as true for the non­
officer defendants here.9

11)

The defendants, Seeley and Spitz, are named "worst

offenders" by the NYS Commission of Corrections.10

8 https://law.justia.com/constitution/us/amendment-14/06-equal-protectionof-the-laws.html
9 Cooper v. Flaig, 18-50499 (5th Cir. Oct. 8, 2019), 19-1001 (S.C.)defines
Qualified Immunity thus: To overcome the qualified immunity defense,
Appellees must show that the law was so clear, under circumstances
reasonably analogous to those Flaig and Sanchez confronted, that no
reasonable officer would have used the amount of force they used. See
Brosseau v. Haugen, 543 U.S. 194, 201 (2004).
10 Commission of Corrections Chair Thomas Beilein ranking Greene County
Worst Offender http://www.scoc.ny.qov/pdfdocs/Problematic-Jails-Report-22018.pdf

P 40

12)

During trials, my (ex)wife declined to provide "victim

impact" statements.

The record shows that ADA Ann Marie Rabin

and defendant Probation Officer Laura Baeckman (as supervised
by defendant Alan Frisbee and Glen Lubera) then wrote one
themselves.

Law prohibits victim statements by people other

than the alleged victim.11

Clare refused to cooperate with the

prosecution of her partner, so they wrote a victim statement
themselves.
13)

I cannot protect my family from terrorism if the courts

do not hold accountable bad acts by "officers of the court."
Polk County v. Dodson, 454 U.S. 31 2, 102 S.Ct. 445 (1981)
exempts a public defender from U.S.C.A. § 1983 civil rights
claims on the concept that he is a private attorney,

The

public defender, Angelo Scaturro, was present as Stand-By
counsel in the last trial, 13-163, and is not sued herein.
14)

Defendant Charles Bucca persistently and maliciously

prosecuted as Assistant District Attorney, but Bucca & Bucca
was also the realtor for our property.

Bucca was denied the

position of District Attorney on this and other cases.

The

acts surpass Qualified Immunity because he acted outside his

11 The law provides no method for any prosecutor to write or read a
statement for a living "victim." See: CPL§§390.30, .50 2 (b) and 2 (f) .

P 41

authority.

15)

State Action.—The Fourteenth Amendment, by its terms,

limits discrimination only by governmental entities, not by
private parties.12 As the Court has noted, "the action
inhibited by the first section of the Fourteenth Amendment is
only such action as may fairly be said to be that of the
States. That Amendment erects no shield against merely private
conduct, however discriminatory or wrongful. f/13

16)

Although state action requirements also apply to other

provisions of the Constitution14 and federal governmental

12 The Amendment provides that "[n]o State" and "nor shall any State"
engage in the proscribed conduct. There are, of course, numerous federal
statutes that prohibit discrimination by private parties. See, e.g., Civil
Rights Act of 1964, Title II, 78 Stat. 241, 243, 42 U.S.C. §§ 2000a et
seq. These statutes, however, are generally based on Congress's power to
regulate commerce. See Katzenbach v. McClung, 379 U.S. 294 (1964); Heart
of Atlanta Motel v. United States, 379 U.S. 241 (1964).
13 Shelley v. Kraemer, 334 U.S. 1, 13 (1948). "It is State action of a
particular character that is prohibited. Individual invasion of individual
rights is not the subject-matter of the amendment. It has a deeper and
broader scope. It nullifies and makes void all State legislation, and
State action of every kind, which impairs the privileges and immunities of
citizens of the United States, or which injures them in life, liberty or
property without due process of law, or which denies to any of them the
equal protection of the laws." Civil Rights Cases, 109 U.S. 3, 11 (1883).
14 The doctrine applies to other rights protected of the Fourteenth
Amendment, such as privileges and immunities and failure to provide due
process. It also applies to Congress's enforcement powers under section 5
of the Amendment. For discussion of the latter, see Section 5,
Enforcement, "State Action," infra. Several other constitutional rights
are similarly limited—the Fifteenth Amendment (racial discrimination in
voting), the Nineteenth Amendment (sex discrimination in voting) and the
Twenty-sixth Amendment (voting rights for 18-year olds)—although the
Thirteenth Amendment, banning slavery and involuntary servitude, is not.

P 42

actions,1341 the doctrine is most often associated with the
application of the Equal Protection Clause to the states.15

17)

THEREFORE, and for reasons replete in the record, I

pray the Court reviews and then remands this case to the 2nd
Circuit COA or directly to the New York Northern District
Court for a trial to award compensation.

18)

And for any other relief such that advances justice.
Respectfully,

Scott Myers
39 West Bridge St.
Catskill, NY
12414
(518) 291-8169
scottmyers @mac.com

I swear under penalty of perjury that the foregoing is true
and correct, November 13, 2020, 28 U.S. Code § 1746

15 The scope and reach of the "state action" doctrine is the same whether a
state or the National Government is concerned. See CBS v. Democratic Nat'l1
Comm., 412 U.S. 94 (1973).

P 43

STATEMENT OF THE CASE

On September 11, 2001, two large planes full of fuel
and passengers exploded inside the World Trade Towers a block
from my home.

My family lived in a rent-controlled penthouse

at 12 John Street since 1982.

At the time my wife was on bed

rest in her 7th month of pregnancy.

Clare is of Middle Eastern

heritage.

When we finally abandoned the home and neighborhood we
moved to a small country home in Tannersville where Clare
spent most of her summers.

We were almost immediately attacked by local law
enforcement.

The first event was from taking our daughter to

the local hardware store.

I was arrested for leaving her in

the car (which was 10' away and always within sight).

The case was eventually dismissed by the Town of Hunter
Hon. William Simon, but the emotional damage to Clare caused
her to breakdown.

At the urging of her mother and sisters,

she hired counsel and sued for divorce.

P 44

Her counsel, Rose Ann Branda, was then the President of
the Bar in Brooklyn.

Clare's retainer contract gave "sole

discretion" to Branda who was eventually paid $50,000.

The judge, Eric Prus, saw us as his first contested
case.

Prus ran unopposed on both party tickets.

He was

nominated by the Brooklyn Bar.

The seasoned attorney Branda began with a temporary
order of protection ("tOP"), which the family court-approved
and Prus renewed.

After granting the divorce Prus jailed me in The Tombs
for 6 months for complaining that he was aiding terrorism and
avoiding legal protections such as the assignment of counsel.

At no time was I represented by counsel.

My formal

motions for appointment of counsel were denied.

The tOP was used by Greene County to persistently
threaten and harass myself and family, preventing the
necessary safety we needed after 9/11.

Charles Bucca grew up in Tannersville and was the
prosecuting Assistant District Attorney.

P 45

Bucca and Bucca were

also the realtor/attorney for our home in Tannersville.

On February 14, 2010, Greene County Deputy Rowell
arrested me in Tannersville.

ADA Bucca prosecuted.

Although

charged with refusing to take a breath test the April 19, 2012
trial in Athens proved that Rowell was not licensed to operate
his equipment, that he did not do field sobriety tests, and
that he made up a false probable cause.

Hon. Constance Pazen

convicted without any evidence of alcohol or unsafe driving.
I appealed.
Pazen.

On April 22, 2014, Hon. Richard Koweek reversed

The record on appeal showed that Pazen used a script

that pre-convicted: "We now find the defendant
guilty of

Meanwhile, the defendants prosecuted county indictments
11-100 and 13-163.

They did not need Clare's permission.

did not cooperate with them.

She

Clare did appear at the jury

trial for 13-163, but as my witness.

Suspecting a forced conclusion, I declined to voir dire
the jury for 13-163.

The trial judge, Hon. Richard Koweek,

denied my motions for jury instruction.

I asked to include

significant case law that allowed violating orders of
protection where danger existed, etc.

P 46

The pre-sentencing report ("PSI") prepared by defendant
Baeckman, supervised by defendants Frisbee and Lubera, can
only be described as evil.

Generally, sentencing allows the victim to speak.

But

at sentencing Baeckman read a statement that Clare did not
write.16

The sentencing statement was not signed.

Further, the trial record shows that Clare was not a
witness at the Grand Juries.

In short, the county prosecuted

without her cooperation.

CONSEQUENCES

Our son Taylor (25) and our daughter Camryn (19) lack
the co-parenting they need and deserve.

My partner Clare

Bassile is unable to feel safe in our own community.

I've personally lost the co-parenting, lost all of my
property, lost income from my engineering career, and lost
freedom for 6 % years of jail and prison.

16 15-CV-00553-DNH-ATB Document 64-4

P 47

REASONS FOR GRANTING THE PETITION

The defendants improperly forced jail and prison on me
and took away my family.

They prayed on our vulnerability

after 9/11.

I've certainly done my part defending these mindnumbing false charges.

I removed the New York State

Matrimonial Chief Judge Jacqueline Silbermann and her
department (referencing the conclusions of their own report).
I demoted Federal Southern District Chief Judge Kimba Wood.

I

removed Greene County Sheriff Richard Hussey, Greene County
Sheriff Greg Seeley, and Jail Superintendent Michael Spitz.

I provoked the Alternatives To Incarceration ("ATI')
committee, which met weekly 20 times.

I forced our jail to close on April 17, 2018, a result
of FOILing 5 years of correspondence and reinforced by SCOC's
report naming Greene County a worst offender.

To recover my family from terrorism, and the effects of
these defendants, it's necessary to grant the petition and
remand to the district court for trial on an award.

P 48

No other solution exists.

I do this work because I

have no other choice.

If this fails my family and I will not recover from
terrorism.

Our children did nothing wrong.

CONCLUSION

THEREFORE, it's requested the court GRANT the writ and then
return the matter to the 2nd Circuit COA or District Court with
instructions to provide for trial on the award, otherwise,
justice will not occur.

Very truly yours,

Scott Myers
39 West Bridge St.
12414
Catskill, NY
(518) 291-8169
scottmyers @mac.com

I swear under penalty of perjury that the foregoing is true
and correct, November 13, 2020, 28 U.S. Code § 1746

P 49

Case l:19-cv-00325-LEK-CFH Document 17 Filed 01/14/20 Page lot 16

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
SCOTT MYERS,
Plaintiff,
-against-

l:19-CV-0325 (LEK/CFH)

THE MUNICIPALITY OF GREENE
COUNTY, etal,
Defendants.

MEMORANDUM-DECISION AND ORDER
I.

INTRODUCTION
Pro se plaintiff Scott Myers brings this complaint against the Municipality of Greene

County and individual defendants Shaun Groden, Ed Kaplan, Kira Pospesel, and Patrick Linger!
Dkt. No. 1 (“Complaint”); 9 (“Amended Complaint”). After granting Plaintiffs motion for leave
to proceed in forma pauperis (“IFP”), the Honorable Christian F. Hummel, U.S. Magistrate
Judge reviewed the Amended Complaint under 28 U.S.C. § 1915(e)(2)(B) and recommended
that the Court dismiss all of Plaintiff s claims. Dkt. No. 14 (“Report-Recommendation”) at 2628. Plaintiff objected. Dkt. No. 16 (“Objections”). For the reasons that follow, the ReportRecommendation is adopted in part and rejected in part.
II.

BACKGROUND
A. The Report-Recommendation
The facts and allegations in this case were detailed in the Report-Recommendation,

familiarity with which is assumed. In short, Plaintiff asserts that officials in Greene County—and
particularly County Attorney Ed Kaplan—committed a variety of constitutional violations

P 21

Case l:19-cv-00325-LEK-CFH Document 17 Filed 01/14/20 Page 2 of 16

against him, largely in response to his vociferous opposition to a proposed Greene County jail.
See Generally Am. Compl. Plaintiff also repeatedly states that the September 11, 2001 attacks
rendered his apartment in lower Manhattan uninhabitable, and suggests that Defendants have
targeted him based on his status as an “internally displaced refugee.” See Am. Compl. at 6; Obj.
at 6.
Judge Hummel construed Plaintiffs Complaint and Amended Complaint1 to assert the
following claims: (1) False arrest, false imprisonment, and malicious prosecution claims against
Kaplan; (2) First and Fourteenth Amendment claims against Kaplan based on Kaplan’s denial of
Plaintiffs Freedom of Information Law (“FOIL”) requests; (3) First Amendment claims against
Kaplan based on Kaplan’s opposition to Plaintiffs applications for poor person relief; (4) First
Amendment claims against Kaplan based on Kaplan’s role in seeking an order of protection
against Plaintiff and blocking Plaintiffs emails; (5) a claim that Kaplan “aided an eviction” of
Plaintiff; (6) Unspecified constitutional claims under the Fourth, Fifth, Sixth, Eighth, and
Fourteenth Amendments against Groden, Kaplan, Pospesel, and Linger; and (7) a Monell claim
against Greene County. R. & R. at 26-27.
Judge Hummel recommended dismissing with prejudice the First and Fourteenth
Amendment claims against Kaplan based on the denial of Plaintiff s FOIL requests and the First
Amendment claims against Kaplan based on the denial of Plaintiff s application for poor person
relief. Id. at 26. Judge Hummel recommended dismissing all other claims without prejudice and
with an opportunity to amend. Id. at 26-28.
B. Plaintiffs Objections

As the Magistrate Judge noted, Plaintiffs Amended Complaint is not styled as an
independent pleading. R. & R. at 6. In light of Plaintiff s pro se status, Judge Hummel
considered the allegations in the Complaint and Amended Complaint collectively. Id
2
P 22

Case l:19-cv-00325-LEK-CFH Document 17 Filed 01/14/20 Page 3 of 16

Plaintiff filed his Objections on August 6, 2019. Objs. As a preliminary matter, these
Objections were untimely. The Report-Recommendation advised Plaintiff that, as of the July 12,
2019 date of decision, he had fourteen days to file written objections, R. & R. at 28, and
factoring in Plaintiffs pro se status, the Court set an objection deadline of July 29, 2019.
However, given Plaintiffs pro se status, the Court will consider his Objections nonetheless. See
Brown v. Outhouse. No. 07-CV-1169, 2009 WL 1652211, at *1 (N.D.N.Y. June 10, 2009)
(considering pro se plaintiffs untimely objections); Garcia v. Griffin. No. 16-CV-2584, 2019
WL 4917183, at *3 (S.D.N.Y. Oct. 4, 2019) (same).
While Plaintiffs filing objects to several of the Magistrate Judge’s recommendations, it
also purports to narrow the scope of his claims and to add and drop defendants. Objs. at 1, 4, 8.
Plaintiff also states, however, that “[a] modified complaint will be filed shortly.” Id at 3. Thus,
the Court does not construe Plaintiffs Objections as a sort of objection-second amended
complaint hybrid, but rather construes the filing as objections that preview a potentially
forthcoming amended complaint. To date, Plaintiff has not filed a second amended complaint.
III.

LEGAL STANDARD
A. § 1915 Review
When a plaintiff seeks to proceed IFP, “the court shall dismiss the case at any time” if the

action: “(i) is frivolous or malicious; (ii) fails to state a claim on which relief may be granted; or
(iii) seeks monetary relief against a defendant who is immune from such relief.” 28 U.S.C.
§ 1915(e)(2)(B). Thus, even if a plaintiff meets the financial criteria to commence an action IFP,
it is the court’s responsibility to determine whether the plaintiff may properly maintain the
complaint before permitting the plaintiff to proceed IFP. See id.
The Court must review pro se complaints liberally, see Nance v. Kelly. 912 F.2d 605, 606
(2d Cir. 1990) (per curiam), and should exercise “extreme caution ... in ordering sua sponte
3
P 23

Case l:19-cv-00325-LEK-CFH Document 17 Filed 01/14/20 Page 4 of 16

dismissal of a pro se complaint before the adverse party has been served and both parties (but
particularly the plaintiff) have had an opportunity to respond.” Anderson v. Coughlin. 700 F.2d
37, 41 (2d Cir. 1983) (internal citations omitted). Therefore, a court should not dismiss a
complaint if the plaintiff has stated “enough facts to state a claim to relief that is plausible on its
face.” Bell Atl. Corn, v. Twomblv. 550 U.S. 544, 570 (2007). “A claim has facial plausibility
when the plaintiff pleads factual content that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal. 556 U.S. 662, 678
(2009) (citing Twomblv. 550 U.S. at 556). Although the Court should construe the factual
allegations in the light most favorable to the plaintiff, “the tenet that a court must accept as true
all of the allegations contained in a complaint is inapplicable to legal conclusions.” Id.
“Threadbare recitals of the elements of a cause of action, supported by mere conclusory
statements, do not suffice.” Id (citing Twomblv. 550 U.S. at 555). “[Wjhere the well-pleaded
facts do not permit the court to infer more than the mere possibility of misconduct, the complaint
has alleged-but it has not ‘show[n]’-‘that the pleader is entitled to relief.’” Id. at 679 (quoting
Fed. R. Civ. P. 8(a)(2)). Rule 8 “demands more than an unadorned, the-defendant-unlawfullyharmed-me accusation.” Iqbal. 556 U.S. at 678 (citing Twomblv. 550 U.S. at 555). Thus, a
pleading that only “tenders naked assertions devoid of further factual enhancement” will not
suffice. Id (internal quotation marks and alterations omitted).
B. Report-Recommendation
Within fourteen days after a party has been served with a copy of a magistrate judge’s
report-recommendation, the party “may serve and file specific, written objections to the
proposed findings and recommendations.” Fed. R. Civ. P. 72(b); L.R. 72.1(c). If objections are
timely filed, a court “shall make a de novo determination of those portions of the report or

4
P 24

Case l:19-cv-00325-LEK-CFH Document 17 Filed 01/14/20 Page 5 of 16

specified proposed findings or recommendations to which objection is made.” 28 U.S.C.
§ 636(b). However, if no objections are made, or if an objection is general, conclusory,
perfunctory, or a mere reiteration of an argument made to the magistrate judge, a district court
need review that aspect of a report-recommendation only for clear error. Barnes v. Prack. No.
ll-CV-857, 2013 WL 1121353, at *1 (N.D.N.Y. Mar. 18, 2013); Farid v. Bouev. 554 F. Supp.
2d 301, 306-07, 306 n.2 (N.D.N.Y. 2008), abrogated on other grounds by Widomski v. State
Univ. of N.Y. at Orange. 748 F.3d 471 (2d Cir. 2014)). “Even a pro se party’s objections to a
Report and Recommendation must be specific and clearly aimed at particular findings in the
magistrate’s proposal.” Machicote v. Ercole. No. 06-CV-13320, 2011 WL 3809920, at *2
(S.D.N.Y. Aug. 25, 2011). “A [district] judge .. . may accept, reject, or modify, in whole or in
part, the findings or recommendations made by the magistrate judge.” § 636(b).
IV.

DISCUSSION
A. Overview
In his Objections, Plaintiff states, “I’m focusing singularly on the access to government

(1st Amendment).” Obj. at 1; see also irh at 4 (“To save court resources consistent with Judge
Hummel’s lead, I’m narrowing the complaint to just ‘Access To Government’ 1st Amendment
issues[.]”). In fine with this narrowed scope, Plaintiffs specific objections focus primarily on his
First Amendment claims.2 The Court reviews the Report-Recommendation’s findings on these
issues de novo. While Plaintiff s Objections also reference his other claims, these paragraphs are

2 In addition to his Objections, Plaintiff submitted a 346-page compilation which, outside
of a few pages of biographical material, consists almost entirely of documentation of Plaintiff s
extensive, often acrimonious interactions with local officials and the state legal system. See
generally Dkt. No. 16-1 (“Exhibits”) (attaching, among other things, letters from Plaintiff to
local officials and judges, courts records of criminal cases against Plaintiff, and orders of
protection against Plaintiff).
5
P 25

Case l:19-cv-00325-LEK-CFH Document 17 Filed 01/14/20 Page 6 of 16

copied nearly verbatim from his Amended Complaint, and thus the Court reviews the Magistrate
Judge’s findings on these issues for clear error. Barnes. 2013 WL 1121353, at *1 (“[I]f an
objection is ... a mere reiteration of an argument made to the magistrate judge, a district court
need review that aspect of a report-recommendation only for clear error.”).
The Court agrees with Judge Hummel’s ultimate conclusion that all of Plaintiff s claims
must be dismissed. However, the Court departs from Report-Recommendation’s finding that
several of Plaintiff s allegations are barred by Heck v. Humphrey, and instead dismisses these
allegations for failure to state a claim. Additionally, the Court dismisses Plaintiffs First
Amendment retaliation claim based on the denial of his FOIL request without—rather than
with—prejudice.
B, False Arrest, False Imprisonment, and Malicious Prosecution
The Report-Recommendation construed the Complaint to bring claims of false
arrest/imprisonment and malicious prosecution against Kaplan, it and recommended dismissing
these claims without prejudice as barred by Heck v. Humphrey. R. & R. at 7-9. Plaintiff argues
that Heck does not apply. Objs. at 4, 6.
1. Heck v. Humphrey
Under Heck, when a plaintiff who has an underlying conviction in state court seeks
damages in a § 1983 suit, “the district court must consider whether a judgment in favor of the
plaintiff would necessarily imply the invalidity of his conviction or sentence; if it would, the
complaint must be dismissed unless the plaintiff can demonstrate that the conviction or sentence
has already been invalidated.” Heck v. Humphrey. 512 U.S. 477, 487 (1994). The Magistrate
Judge recommended that, because it appeared the charges against Plaintiff remained pending, his

6
P 26

Case l:19-cv-00325-LEK-CFH Document 17 Filed 01/14/20 Page 7 of 16

claims be dismissed as barred by Heck. R. & R. at 1-9? Plaintiffs objections on this point are
difficult to follow, and Plaintiff cites no case law in support. See Objs. at 4, 6. Nonetheless, Heck
does not bar Plaintiffs claims.
“Heck bars a § 1983 claim based on an extant conviction, but it has no application to an
anticipated future conviction.” Stegemann v. Rensselaer Ctv. Sheriffs Office. 648 F. App’x 73,
76 (2d Cir. 2016); see also Wallace v. Kato. 549 U.S. 384, 393 (2007) (refuting the argument
that “an action which would impugn an anticipatedfuture conviction cannot be brought until that
conviction occurs and is set aside” and stating “[w]e are not disposed to embrace
this . . . extension of Heck”) (emphasis in original); McDonough v. Smith. 139 S. Ct. 2149, 2157
(2019) (noting that “some claims do fall outside Heck’s ambit when a conviction is merely
‘anticipated’”).
2. Failure to State a Claim
Because Heck does not bar Plaintiffs claims, the Court considers whether Plaintiff has
stated a claim for false arrest/imprisonment, or malicious prosecution. See 28 U.S.C.
§ 1915(e)(2)(B). He has not. Plaintiffs Complaint, Amended Complaint, and Objections include
only the most conclusory of allegations which, even read together and liberally, are insufficient
to state a claim.
First, while the unresolved criminal proceedings do not bar Plaintiffs complaint under
Heck, they do prevent Plaintiff from pursuing a malicious prosecution claim. See Singer v.
Fulton Ctv. Sheriff. 63 F.3d 110,118 (2d Cir. 1995) (“One element that must be alleged and

3 While the Magistrate Judge noted that the status of the charges against Plaintiff was not
entirely clear, Plaintiffs Objections confirm that the charges are still pending. Objs. at 4 (“My
Motion to Dismiss for Speedy Trial failure, inter alia, is pending in the Town of Durham’s
Court.”).
7
P 27

Case l:19-cv-00325-LEK-CFH Document 17 Filed 01/14/20 Page 8 of 16

proved in a malicious prosecution action is termination of the prior criminal proceeding in favor
of the accused.”) (quoting Restatement (Second) of Torts § 653(b) (1977)).4 The pending
criminal charges do not, however, bar Plaintiffs false arrest and false imprisonment claims. See
Wevant v. Okst. 101 F.3d 845, 853 (2d Cir. 1996) (“[WJhile the favorable termination of judicial
proceedings is an element of a claim for malicious prosecution, it is not an element of a claim for
false arrest.”) (citation omitted).
The Court considers Plaintiff s false arrest and false imprisonment claims in tandem. See
Singer. 63 F.3d at 118 (“The common law tort of false arrest is a species of false
imprisonment.”); Dale v. Kelley. 908 F. Supp. 125, 131 (W.D.N.Y. 1995) (“Although the
complaint alleges both false arrest and false imprisonment, the two terms are virtually
synonymous under New York law.”) affd. 95 F.3d 2 (2d Cir. 1996). “The elements of a claim of
false arrest under § 1983 are substantially the same as the elements of a false arrest claim under
New York law.” Singer. 63 F.3d at 11. “Under New York law, the elements of a false
imprisonment claim are: (1) the defendant intended to confine [the plaintiff], (2) the plaintiff was
conscious of the confinement, (3) the plaintiff did not consent to the confinement and (4) the
confinement was not otherwise privileged.” Id. (quotations omitted; alteration in original).
“There can be no federal civil rights claim for false arrest where the arresting officer had
probable cause.” Id
Here, Plaintiff has not plausibly alleged a lack of probable cause. Plaintiffs only
allegations regarding the “pre-planned false arrest,” Compl. at 1, are that “[t]he arrest was

4 Plaintiff also fails to state a claim for malicious prosecution because Plaintiff has not
sufficiently alleged there was a lack of probable cause, as discussed infra. Kilbum v. Vill. of
Saranac Lake. 413 F. App’x 362, 364 (2d Cir. 2011) (“Probable cause is an absolute defense to a
malicious prosecution claim under New York law.”).
8
P 28

Case l:19-cv-00325-LEK-CFH Document 17 Filed 01/14/20 Page 9 of 16

prearranged,” and that “Mr. Kaplan directed what charge[s] were made, adding resisting arrest a
day later,” id. at 6; see also Am. Compl. at 8 (“Greene County per-planned [sic] an arrest of me
at the January 16, 2019 Monthly County Legislature Meeting, charging me with disorderly
conduct, and trespassing. I was arrested the next day off the street and taken to Cairo for
arraignment where an additional charge of resisting arrest was added-presumably to raise the
mischief to criminal.”). These vague claims do not plausibly allege that there was a lack of
“knowledge or reasonably trustworthy information sufficient to warrant a person of reasonable
caution in the belief that an offense has been committed by the person to be arrested.” Singer. 63
F.3d at 119. In a different section of his Amended Complaint, Plaintiff states, “The matter at
hand flows naturally from the exploitation of my family’s vulnerability from terrorism and is
materialized by their blocking of email and eventually arresting me simply for attending the
monthly legislature meeting.” Am. Compl. at 5. While an arrest for simply attending a meeting
could, if properly plead, very well lead to a valid claim, Plaintiff has simply not alleged “factual
content that allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged.” Ashcroft. 556 U.S. at 678 (2009).
Accordingly, the Court adopts the Magistrate Judge’s recommendation that Plaintiffs
false arrest, false imprisonment, and malicious prosecution claims be dismissed without
prejudice.
C. FOIL
The Magistrate Judge recommended dismissing Plaintiffs First and Fourteenth
Amendment FOIL claims against Kaplan with prejudice. R. & R. at 10-12.
The Court agrees that Plaintiff failed to allege that the denial of his FOIL requests
directly violated his Fourteenth Amendment rights and that an amended complaint could not cure
this claim’s defects. See R. & R. at 11. “Courts in this District have repeatedly recognized that a
9
P 29

Case l:19-cv-00325-LEK-CFH Document 17 Filed 01/14/20 Page 10 of 16

section 1983 action is not the proper vehicle for bringing a FOIL claim.” Hall v. Bennmer. No.
19-CV-85, 2019 WL 2477994, at *2 (N.D.N.Y. Mar. 4, 2019) (internal quotation marks
omitted), report and recommendation adopted. No. 19-CV-85, 2019 WL 1760050 (N.D.N.Y.
Apr. 22, 2019) (Kahn, 1). “Under New York state law, if an agency or government official fails
to comply with the provisions of FOIL, the person submitting the FOIL request must pursue an
administrative appeal or seek remedies in state court pursuant to N.Y. C.P.L.R. Article 78.” Posr
v. City of New York. No. 10-CV-2551, 2013 WL 2419142, at *14 (S.D.N.Y. June 4, 2013), affd
sub nom. Posr v. Ueberbacher. 569 F. App’x 32 (2d Cir. 2014). Accordingly, Plaintiffs
Fourteenth Amendment FOIL claim is dismissed with prejudice. See Butler v. Geico Gen. Ins
Co-) No. 18-CV-1493, 2019 WL 330591, at *3 (N.D.N.Y. Jan. 25, 2019) (“[Wjhere the grounds
for dismissal offer no basis for curing the defects in the pleading, dismissal with prejudice is
appropriate.”) report and recommendation adopted. No. 18-CV-1493, 2019 WL 652197
(N.D.N.Y. Feb. 15, 2019)
As the Report-Recommendation noted, however, Plaintiff also appears to allege that
Kaplan “denied FOIL requests in retaliation for plaintiffs exercise of protected speech” in
opposition to the county jail. R. & R. at 11; Am. Compl. at 6-7. Thus, the Court must also
analyze whether Plaintiff s allegations state a First Amendment retaliation claim. To assert this, a
plaintiff must allege: (1) that the speech or conduct at issue was protected, (2) that the defendant
took adverse action against the plaintiff, and (3) that there was a causal connection between the
protected speech and the adverse action.” Dawes v. Walker. 239 F.3d 489, 492 (2d Cir. 2001),
overruled on other grounds, Swierkiewicz v. Sorema N.A.. 534 U.S. 506 (2002).

10
P 30

Case l:19-cv-00325-LEK-CFH Document 17 Filed 01/14/20 Page 11 of 16

Plaintiff—whose Objections in support of his FOIL claims merely repeat arguments in
his Amended Complaint, see Objs. at 6-7; Am. Compl. at 7—fails to state a First Amendment
retaliation claim. He alleges that Kaplan “denied [his] legal FOIL requests” and that “the denial
of FOILs here is strategic and harmful.” Objs. at 6-7. Further, he assets that unlike most public
institutions in which “someone [is] not gaming the FOIL requests [,] Mr. Kaplan choose [sic] to
directly participate, which is the intent and the issue.” Id These conclusory allegations do not
plausibly allege the requisite causal connection between the protected speech and the purported
adverse action. Dawes. 239 F.3d at 492.
But it is not clear that Plaintiff would be unable to remedy these flaws in a second
amended complaint. While § 1983 claims directly disputing denied FOIL requests are not
permitted, see Hall, 2019 WL 2477994, at *2, it appears at least possible that the denial of a
FOIL request can constitute a retaliatory act. In Murray v. Coleman, a plaintiff stated a First
Amendment retaliation claim by alleging that the defendant retaliated against Plaintiff s
protected speech by denying his FOIL request. 737 F. Supp. 2d 121, 126 (W.D.N.Y. 2010). In
rejecting the defendant’s contention that “the denial of a FOIL request... cannot, as a matter of
law, present a constitutional violation,” the Court explained that “plaintiff is not claiming that the
First Amendment entitled him to disclosure of the records he requested through FOIL: rather, he
asserts that [the defendant’s] denial of his FOIL request was an unconstitutional act of retaliation
for his exercise of his own First Amendment rights.” Id; see also Green v. Sears. No. 10-CV121, 2013 WL 1081779, at *14 (N.D.N.Y. Feb. 19, 2013), report and recommendation adopted.
No. 10-CV-121, 2013 WL 1081535 (N.D.N.Y. Mar. 14, 2013) (suggesting a retaliation claim
could lie if there was “evidence of a causal connection between Plaintiffs protected First
Amendment conduct.. . and the denial of his FOIL requests”).

11
P 31

